<html>
<title> - PIPELINE SAFETY: PUBLIC AWARENESS AND EDUCATION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
            PIPELINE SAFETY: PUBLIC AWARENESS AND EDUCATION

=======================================================================

                               (111-132)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON

             RAILROADS, PIPELINES, AND HAZARDOUS MATERIALS

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             July 21, 2010

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure


                  U.S. GOVERNMENT PRINTING OFFICE
57-561                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="81e6f1eec1e2f4f2f5e9e4edf1afe2eeecaf">[email&#160;protected]</a>  


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           BRETT GUTHRIE, Kentuckyd
CHRISTOPHER P. CARNEY, Pennsylvania  ANH ``JOSEPH'' CAO, Louisiana
JOHN J. HALL, New York               AARON SCHOCK, Illinois
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
STEVE COHEN, Tennessee               TOM GRAVES, Georgia
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
JOHN GARAMENDI, California
HANK JOHNSON, Georgia

                                  (ii)

?

     SUBCOMMITTEE ON RAILROADS, PIPELINES, AND HAZARDOUS MATERIALS

                   CORRINE BROWN, Florida Chairwoman

DINA TITUS, Nevada                   BILL SHUSTER, Pennylvania
HARRY TEAGUE, New Mexico             THOMAS E. PETRI, Wisconsin
NICK J. RAHALL II, West Virginia     JERRY MORAN, Kansas
JERROLD NADLER, New York             GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         HENRY E. BROWN, Jr., South 
GRACE F. NAPOLITANO, California      Carolina
JASON ALTMIRE, Pennsylvania          TIMOTHY V. JOHNSON, Illinois
TIMOTHY J. WALZ, Minnesota, Vice     SAM GRAVES, Missouri
Chair                                JIM GERLACH, Pennsylvania
MICHAEL A. ARCURI, New York          CHARLES W. DENT, Pennsylvania
CHRISTOPHER P. CARNEY, Pennsylvania  LYNN A. WESTMORELND, Georgia
ALBIO SIRES, New Jersey              JEAN SCHMIDT, Ohio
MARK H. SCHAUER, Michigan            CANDICE S. MILLER, Michigan
BETSY MARKEY, Colorado               VERN BUCHANAN, Florida
MICHAEL E. McMAHON, New York         BRETT GUTHRIE, Kentucky
THOMAS S. P. PERRIELLO, Virginia     AARON SCHOCK, Illinois
PETER A. DeFAZIO, Oregon             ANH ``JOSEPH'' CAO, Louisiana
JERRY F. COSTELLO, Illinois          PETE OLSON, Texas
BOB FILNER, California               VACANCY
EDDIE BERNICE JOHNSON, Texas
LEONARD L. BOSWELL, Iowa
RICK LARSEN, Washington
MICHAEL H. MICHAUD, Maine
DANIEL LIPINSKI, Illinois
STEVE COHEN, Tennessee
LAURA A. RICHARDSON, California
JAMES L. OBERSTAR, Minnesota
  (ex officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Davis, Sam, General Manager and Chief Exective Officer, Lake 
  Apopka Natural Gas District, Winter Garden, Florida, on behalf 
  of the American Public Gas Association.........................    13
Kessler, Rick, Vice President of the Board of Directors, Pipeline 
  Safety Trust...................................................    13
Kipp, Bob, President, Common Ground Alliance.....................    13
Lidiak, Peter, Pipeline Director, American Petroleum Institute...    13
O'Rourke, Peter, Director of Energy Programs, National 
  Association of State Fire Marshals.............................    13
Quarterman, Hon. Cynthia, Administrator, Pipeline and Hazardous 
  Materials Safety Administration, U.S. Department of 
  Transportation.................................................     2
Tahamtani, Massoud, Director, Division of Utility and Railroad 
  Safety, Virginia State Corporation Commission, on behalf of the 
  National Association of Pipeline Safety Representatives........    13

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Cohen, Hon. Steve, of Tennessee..................................    32
Richardson, Hon. Laura, of California............................    33

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Davis, Sam.......................................................    41
Kessler, Rick....................................................    54
Kipp, Bob........................................................    75
Lidiak, Peter....................................................    93
O'Rourke, Peter..................................................   107
Quarterman, Hon. Cynthia.........................................   115
Tahamtani, Massoud...............................................   152

                       SUBMISSIONS FOR THE RECORD

Davis, Sam, General Manager and Chief Exective Officer, Lake 
  Apopka Natural Gas District, Winter Garden, Florida, on behalf 
  of the American Public Gas Association, response to request for 
  information from the Subcommittee..............................    52
Kessler, Rick, Vice President of the Board of Directors, Pipeline 
  Safety Trust, response to request for information from the 
  Subcommittee...................................................    70
Kipp, Bob, President, Common Ground Alliance, response to request 
  for information from the Subcommittee..........................    90
Lidiak, Peter, Pipeline Director, American Petroleum Institute, 
  response to request for information from the Subcommittee......   101
O'Rourke, Peter, Director of Energy Programs, National 
  Association of State Fire Marshals, response to request for 
  information from the Subcommittee..............................   111
Quarterman, Hon. Cynthia, Administrator, Pipeline and Hazardous 
  Materials Safety Administration, U.S. Department of 
  Transportation, response to request for information from the 
  Subcommittee...................................................   124
Tahamtani, Massoud, Director, Division of Utility and Railroad 
  Safety, Virginia State Corporation Commission, on behalf of the 
  National Association of Pipeline Safety Representatives........   158

[GRAPHIC] [TIFF OMITTED] T7561.001

[GRAPHIC] [TIFF OMITTED] T7561.002

[GRAPHIC] [TIFF OMITTED] T7561.003

[GRAPHIC] [TIFF OMITTED] T7561.004

[GRAPHIC] [TIFF OMITTED] T7561.005

[GRAPHIC] [TIFF OMITTED] T7561.006

[GRAPHIC] [TIFF OMITTED] T7561.007

[GRAPHIC] [TIFF OMITTED] T7561.008



            PIPELINE SAFETY: PUBLIC AWARENESS AND EDUCATION

                              ----------                              


                        Wednesday, July 21, 2010

                  House of Representatives,
Subcommittee on Railroads, Pipelines, and Hazardous 
                                         Materials,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2:36 p.m., in 
room 2167, Rayburn House Office Building, Hon. Corrine Brown 
[Chairman of the Subcommittee] presiding.
    Ms. Brown of Florida. The Subcommittee on Railroads, 
Pipelines, and Hazardous Materials will come to order. The 
Subcommittee is meeting today to hear testimony on Pipeline 
Safety: Public Awareness and Education. This hearing is the 
fourth in a series of oversight hearings the Subcommittee will 
hold as we look toward reauthorizing the Department's pipeline 
safety program.
    The Pipeline Safety Improvement Act of 2002 required each 
owner or operator of a gas or hazardous liquid pipeline 
facility to develop and implement a public education program. 
Each program should educate the public on the possible 
hazardous associated with unintended releases from the pipeline 
facility, the physical indications that such a release may have 
occurred, what steps should be taken for public safety in the 
event of a pipeline release, and how to report such an event. 
The program also had to educate the public on the use of a One 
Call notification system prior to evacuation and other damage-
prevention activities.
    In addition, the 2002 law required each owner or operator 
of a gas or hazardous liquid pipeline facility to review its 
existing public education program for effectiveness and modify 
the program as necessary. The completed program had to include 
activities to advise affected municipalities, school districts, 
businesses, and residents of pipeline facility locations, and 
be submitted to the Secretary for review.
    On May 5th, with the strong support of our Subcommittee, 
the House passed House Resolution 1278, a bill to designate the 
month of April as National Safe Digging Month. The Pipeline and 
Hazardous Materials Safety Administration, along with many 
States and stakeholders across our Nation, are working together 
to encourage all homeowners and contractors to call 811 before 
they dig.
    According to PHMSA, the One Call notification system has 
helped reduce the number of incidents caused by excavation 
damage, from 57 percent in 2004 to 35 percent in 2009. Clearly 
these numbers speak for themselves. Indeed, it is extremely 
important to call 811, the Call Before You Dig line, and it is 
such an easy way for individuals and companies to save lives, 
the environment, our Nation's infrastructure, and even save 
money and investments.
    We have undoubtedly made some positive steps in educating 
the public about the dangers of underground utilities; however, 
the verdict is still out on the operators' education program 
and whether or not they will be effective. I hope today's 
hearing will shed some light on the needs of the program and to 
ensure that these programs are working correctly, and that 
communities and first responders are getting the information 
they need to prepare for an accident.
    With that, I want to welcome today's panelists and thank 
you for joining us. I am looking forward to hearing their 
testimony.
    Ms. Brown of Florida. Before I yield to Mr. Shuster, I ask 
the Members to be given 14 days to revise and extend their 
remarks and to permit the submission of additional statements 
and materials for Members and witnesses. Without objection, so 
ordered.
    Ms. Brown of Florida. I now yield to Mr. Shuster for his 
opening statement.
    Mr. Shuster. I thank the Chairwoman, and welcome to the 
Administrator for being here again. We will have to set up a 
desk in the back for you so you don't have to traipse from 
downtown every week. It is good to have you.
    I would like unanimous consent to submit my full statement 
for the record. I will keep it short because we have talked to 
the Administrator a number of times on these issues and others 
over the last year.
    My one question I will have today at some point for you or 
for your staff to research it, there are some States, some 
government entities out there that have exempted themselves or 
are exempted from the 811, Call Before You Dig. And I just 
wondered what States were that? Is that actually happening? 
Because it just doesn't make any sense to me at all that 
anybody would exempt themselves because of something so simple, 
and something that could avoid accidents and bad situations.
    So that is what I submit for the record for your staff, and 
maybe you can get back to me on that.
    It is good to have you here today, and I yield back.
    Ms. Brown of Florida. I am pleased to introduce the 
Honorable Cynthia Quarterman, who is the Administrator of the 
U.S. Department of Transportation, Pipeline and Hazardous 
Materials Safety Administration.
    I want to welcome you, and I want to thank you. I think 
this is your fourth time coming before the Committee. So that 
is--I mean, thank you so very much, and the floor is yours.

 TESTIMONY OF CYNTHIA QUARTERMAN, ADMINISTRATOR, PIPELINE AND 
 HAZARDOUS MATERIALS SAFETY ADMINISTRATION, U.S. DEPARTMENT OF 
                         TRANSPORTATION

    Ms. Quarterman. Thank you for having me again, Chairwoman 
Brown, Ranking Member Shuster.
    Mr. Shuster. Are you sure about that?
    Ms. Quarterman. Absolutely, it is my pleasure.
    Members of the Committee, thank you for the opportunity to 
appear here today. Secretary LaHood, the employees of PHMSA and 
the entire Department share public safety as their top 
priority. The Department holds a strong commitment to 
preventing spills on all pipelines through regulation, 
oversight, public awareness and education.
    PHMSA works with a broad stakeholder community to shape 
many of our public awareness, education and damage-prevention 
initiatives. With the help of its stakeholders, PHMSA has made 
great progress in reducing the number of serious pipeline 
incidents by 50 percent over the last 20 years. PHMSA aims to 
continue this downward trend in pipeline incidents through 
increased efforts in outreach and public awareness programs, 
State funding and enforcement.
    For years PHMSA has been at the forefront of finding 
effective solutions to prevent excavation damages to 
underground pipelines. Since 2002, PHMSA has provided over $2.2 
million in funding assistance to the Common Ground Alliance to 
support the 811 educational outreach campaign. This year the 
United States Senate, the House of Representatives and the 
Transportation Secretary Ray LaHood all promoted the importance 
of calling before you dig by designating April as National Safe 
Digging Month, and I thank this Committee for your work on 
that.
    In addition, at PHMSA's urging, 40 States, including those 
represented by Members of this Subcommittee, also followed suit 
with a statewide Safe Digging Month proclamation. In support of 
these efforts, PHMSA is encouraging States to help spread the 
damage prevention message. PHMSA's One Call and State Damage 
Prevention grant programs fund improvements in State and 
community damage-prevention efforts. Since 1995, PHMSA has 
awarded over $14 million in One Call grants. An additional $4 
million in State Damage Prevention grants have been provided to 
States since 2008.
    Accompanying its grant programs, PHMSA is preparing local 
officials to be public education resources within their 
communities and helping citizens learn how they can protect 
themselves and pipelines.
    PHMSA has implemented many nonregulatory programs that 
contribute to public awareness, including the National Pipeline 
Mapping System, the Community Assistance and Technical Service 
Representatives, the Pipelines and Informed Planning Alliance, 
operator public awareness programs, Technical Assistance 
grants, and direct access to information on its stakeholders 
communication Web site.
    In addition, PHMSA's relationship with the National 
Association of State Fire Marshals and the International 
Association of Fire Chiefs has resulted in the availability of 
training materials that assist first responders in responding 
safely and efficiently to and effectively to pipeline 
emergencies.
    While PHMSA has accomplished many goals with its State 
partners and other stakeholders in pipeline safety, it is 
important that States continue to recognize the role that 
effective and fair enforcement plays in reducing excavation 
damage to underground infrastructure. PHMSA is developing a 
rulemaking to pursue administrative civil penalties against 
excavators who violate damage-prevention requirements and 
damage a pipeline in the absence of effective enforcement by 
the State where it occurred. The hope is that this rulemaking, 
along with all the current public awareness initiatives, will 
highlight the importance for all stakeholders to call 811 
before digging, to respect the marks identifying the locations 
of underground utilities, and to practice safe digging 
techniques.
    PHMSA looks forward to increasing its efforts in national 
and State damage prevention and public awareness programs, and 
working with Congress to yield further results in pipeline 
safety.
    Thank you. I would be pleased to answer any questions you 
may have.
    Ms. Brown of Florida. Thank you.
    Mr. Walz----
    Mr. Walz. Thank you, Madam Chair.
    Ms. Brown of Florida. --for opening statements and any 
questions that you may have.
    Mr. Walz. Thank you very much, and I thank the Ranking 
Member.
    Ms. Quarterman, I, too, want to express my thanks. You have 
been here, and incredibly accessible to each of us, to help us 
learn about this important issue. I look forward to every one 
of these. I learn something new. I think this issue of 
educating the public is--we have made strides in, there is no 
doubt about it, from the One Calls and the institute. Our 
pipeline operators have made a great effort of that.
    I just have a couple of questions as we are trying to get 
this out and let the public know on this. I am going to go down 
this line of questioning since 2002 in the Pipeline Safety 
Improvement Act, and there were some things that were supposed 
to have happened with the Notice of Proposed Rulemaking. And 
one of the questions we had in talking with the staff, did 
PHMSA publish the recommended practice in the Notice of 
Proposed Rulemaking or in the rulemaking docket so the public 
could see that?
    Ms. Quarterman. And now you are referring to the public 
awareness?
    Mr. Walz. That is right.
    Ms. Quarterman. That rulemaking process was developed with 
input by PHMSA and NAPSR, which are our State partners. During 
the rulemaking process I believe that it was made available. 
The recommended practice was actually published by the API, the 
American Petroleum Institute, and they made it available to the 
public on their Web site during that period for free.
    Mr. Walz. If I am right on that, there are 69 API standards 
in pipeline safety and 151 standards in HAZMAT. We looked into 
it. It costs $93 per standard to see that. So for the public to 
get it, it would be several thousand dollars.
    Ms. Quarterman. It would be quite expensive for them to get 
all the standards.
    Mr. Walz. Well, how do we do that if this is about 
educating them and about making it accessible? Can we do better 
on that regard?
    Ms. Quarterman. Well, I think this is a governmentwide 
issue, to be candid with you. There is a statute that exists, 
the Congress promulgated, encouraging government agencies to 
use these national standards, these industry standards. And the 
administration executive branch through OMB has issued several 
guidelines encouraging, again, the Federal Government to use 
and adopt these standards. There are, as you mentioned, several 
within PHMSA that have been adopted. We are in quite a few 
working groups right now developing many national standards. 
However, as----
    Mr. Walz. Do we need to do something to help? Because I 
don't think anything sinister in this; I think it is just a 
case of trying to disseminate it to the public in the easiest, 
most cost-effective manner. If it is a transparency issue to 
try and get it out, and if it is about educating them, is there 
anything we can do that you can see that could help do that? 
Because in the case here, I don't have any particular question 
towards the standards themselves; it is just about the access 
to the public to get them.
    Ms. Quarterman. Well, it might be useful to have a panel, 
should we say a committee, put together by Congress to look 
into this issue how we might make these standards more publicly 
available, because I agree with you, it would be great if they 
were more accessible to everyone.
    Mr. Walz. I appreciate that.
    I have no further questions, and I yield back, Madam Chair.
    Ms. Brown of Florida. Mr. Shuster.
    Mr. Shuster. Thank you.
    I just wanted, again, to reiterate my first questions. I 
don't know if you have the answer to it, but if staff could 
send this over, you know, what groups, who has exempted 
themselves from the 811, I would certainly like to know that. 
If you get that to me, that would be great.
    The second question or concern of mine that the Pipeline 
Safety Trust claims that they helped PHMSA develop the 
evaluation criteria used to select recipients for your 
Technical Assistant grants, and the Pipeline Safety Trust was 
awarded one of these grants. And is that a conflict of interest 
for a group to participate in the criterion evaluation and then 
receive funding?
    Ms. Quarterman. Well, I am not aware of that situation. I--
that would be something that would be of concern to me, I would 
have to say. But I don't know the specifics of that situation. 
I would have to go and look at that.
    Mr. Shuster. Sure.
    Ms. Quarterman. As to the exemption question, there are 
many States that have in it their laws exemptions to the One 
Call law. It is my belief that those exemptions should be 
eliminated. Very recently the State of Maryland was adopting a 
new One Call law, and there was an exemption planned for the 
Department of Transportation. We did have conversations with 
them, and that exemption was removed from the law.
    Different States have different exemptions. Some of them 
relate to farmers, some of them relate to the Department of 
Transportation, others relate to the railroads. I would like to 
see all of those exemptions removed.
    Mr. Shuster. And I guess my concern is does anybody really 
not make the call that you know of? There may have been 
exemptions in there, and I am not a big proponent of the 
Federal Government having sweeping laws necessarily, but it 
just seems to me to be just plain stupid to go digging without 
calling someone and saying, is there a gas line, or is there a 
cable or something here.
    If you could get back to me, I would appreciate it.
    Ms. Quarterman. Unfortunately there were three incidents in 
the past month where four people were killed. Now, we are still 
in the process of investigating that. We don't know if everyone 
called in all of those instances, and perhaps the markings were 
wrong. That is still under investigation. But in my view, all 
of those deaths were absolutely preventable if the One Call law 
was complete, and people did everything that they were 
responsible for doing.
    Mr. Shuster. Thank you.
    Ms. Brown of Florida. Mr. Nadler.
    Mr. Nadler. Thank you.
    I want to follow up on some of the questions asked by Mr. 
Walz. It seems to me it is an awfully closed-door process in 
which, if I want to know what the regulations are, I read the 
PHMSA regs, and it refers me to a private organization's regs, 
which will cost me money to get, and a large amount of money.
    Secondly, the regulations are developed by these private 
organizations with a PHMSA representative, but the public is 
excluded; am I correct?
    Ms. Quarterman. Well, usually both at the State and PHMSA 
representatives are involved in these----
    Mr. Nadler. The State and PHMSA representatives, but if I 
want to go there and observe----
    Ms. Quarterman. The public could be involved in the process 
if they wanted to, or if they wanted to become a part of the 
process, but, you know, from our perspective our responsibility 
is to represent the public.
    Mr. Nadler. But none of the proceedings are published. None 
of the proceedings or minutes of the meetings are published. If 
you want to see the--no drafts are published, although a draft 
may be published, but refers to the industry group, the API, 
for instance, regs or standards, which you have to purchase at 
an expensive amount, which really closes out everybody, 
correct?
    Ms. Quarterman. With respect to the particular standard 
that we are referring to here, it was made public, but that is 
not----
    Mr. Nadler. No, no, no. When you say it was made public, it 
was made public only if I purchase the stuff from the API.
    Ms. Quarterman. Not with respect to the public awareness 
regulation. This was made public on the API Web site at the 
time the regulation was----
    Mr. Nadler. It was made public for a short period of time 
during the comment.
    Ms. Quarterman. Right.
    Mr. Nadler. I can't get it. If I don't have a lot of money, 
I can't get it. I can't read the Federal Register and get it.
    Ms. Quarterman. My understanding is it is no longer 
publicly available, so if you wanted it now, you would have to 
purchase it.
    Mr. Nadler. What excuse is there for keeping this that way? 
Why shouldn't this all be public? Why should I have to purchase 
it?
    Ms. Quarterman. Well, PHMSA can't make that happen.
    Mr. Nadler. Excuse me, I think PHMSA can. The law says 
that--the law you quoted is that you are encouraged to involve 
these private groups, but you are not required to. And I think 
that you could require that all this be public.
    Ms. Quarterman. I would have to talk to my lawyers about 
that. I think they might disagree with that, but we would be 
happy--if we could force it to happen, we would do it.
    Mr. Nadler. Would you get back to us with your lawyers' 
opinion on that? Because I think it is within the jurisdiction 
of the agency to require that this be available. Certainly the 
normal--the normal proceeding is that a regulatory agency such 
as PHMSA can make your own regulation. That regulation could--
with a proper rulemaking procedure, that regulation could 
provide that all of these regulations be available publicly, 
and that insofar as the regulation references an API or some 
other private thing, that that be available publicly, in fact 
that it be right there. I see no reason why you couldn't do 
that.
    Ms. Quarterman. We will investigate it.
    Mr. Nadler. OK. Well, I hope you do investigate it, because 
when the agency issues a rule that says that the programs have 
to be based on a private group, in this case API's recommended 
practice 1162, that recommended practice 1162 ought to be 
quoted in its entirety right there. Anything else is really 
excluding the public, and especially in this time period when 
there is a lot of, shall we say, skepticism about private 
groups, especially groups dealing with safety in the aftermath 
of BP and everything else. To require someone who wants to know 
what the safety regulations are to pay $100,000, which is what 
it would take to get most of this information, might lead some 
people to think that not everything is totally open.
    So I hope you will take this under advisement and will get 
back to us either stating that you will institute a rulemaking 
procedure to make it all open and available on the Federal Web 
site or whatever without having people having to come up with 
money, or give us a good legal reason, a real legal reason, why 
it is not within the jurisdiction of the agency to do, which I 
believe it is.
    Ms. Quarterman. Well, I would certainly be supportive of 
having everything available to the public for free. So if it is 
feasible, then it will happen.
    Mr. Nadler. Very good. Thank you.
    Ms. Brown of Florida. Mr. Schauer.
    Mr. Schauer. Thank you, Madam Chair. Thank you for being 
with us.
    Just want to talk a little bit more about the standard for 
public education programs and involvement of industry 
representatives versus public representatives. And I know in 
June of 2004, PHMSA published the Notice of Proposed Rulemaking 
requiring each pipeline operator to develop and implement 
proposed education programs based on provisions of the American 
Petroleum Institute's recommended practice 1162. It sounds like 
a multi-industry task force was comprised with representatives 
of hazardous liquid, gas transmission, gas distribution, 
pipeline operators, trade organizations. So I guess the real 
question is was there an opportunity for the general public to 
be a part of that standard? Has PHMSA voted on the final 
standard? And what was the ratio of PHMSA representatives on 
this multi-industry task force compared to industry 
representation?
    The point is if these are programs to educate the public, 
we need to make sure that the public is there at the table and 
this, again, isn't something that is just designed by industry. 
So I am just curious about your response to that.
    Ms. Quarterman. I don't know the numbers of people from 
each part of the public, or private or government. That is 
something we can look up and get back to you on, absolutely. 
And I agree the public should be represented, and it is PHMSA's 
role to represent the public.
    Mr. Schauer. Well, if we sort of think about this, and I 
think sometimes the government forgets that, and sometimes 
industry forgets, industry is there to make a profit, certainly 
you would think that acting in a safe, responsible manner would 
be good for their profits. But as we saw from BP, they cut 
corners and put profits before safety.
    We need to make sure that the end users, consumers, the 
public is really engaged and certainly in these public 
education programs aimed at safety. So I would urge you to take 
that into account in future rulemaking.
    Thank you.
    Thank you, Madam Chair. I yield back.
    Ms. Brown of Florida. Ms. Napolitano.
    Mrs. Napolitano. Sorry about that, Madam Chair.
    I had a couple of questions, Ms. Quarterman, in regard to 
pipeline oil safety in my district, specifically to a major oil 
pipeline and oil tank leak that has been under investigation 
and continued remediation for decades. Polluter: the Air Force.
    In your experience does the public sector or private sector 
oil operators do a better jobs of education, protection and 
remediation? What factors contribute to this? And what can we 
do to be able to impress upon any of the services how critical 
it is to clean up their own mess?
    Ms. Quarterman. I am not familiar with the particular 
instance that you are--I think I have heard something about it. 
I believe it is the military----
    Mrs. Napolitano. Correct. It is a transfer station. It is 
transportation related.
    Ms. Quarterman. I am sorry, could you repeat your question 
exactly?
    Mrs. Napolitano. Well, the public sector, the private 
sector, all operators do a better jobs of education, protection 
and remediation. What contributes to this? I know, because I 
have been on there particular issue for over 20-some-odd years, 
and it is like pulling hen's teeth to get the Armed Forces to 
do anything that is going to protect the health and safety of 
the community. This is a proven carcinogen in that particular 
leak.
    Ms. Quarterman. Well, with respect to public awareness, our 
regulations require that operators of hazardous liquid 
pipelines put in place public awareness programs that inform 
the public about the location of pipelines or storage 
facilities, what products are there, what they should be 
looking for in case of a leak, how they should respond if 
something were to happen.
    Mrs. Napolitano. Would you hold that thought?
    Ms. Quarterman. Sure.
    Mrs. Napolitano. Because it took us about 10 years to try 
to get an open meeting with the Department of Defense on this 
particular tank farm. They would not even allow us to go on 
site to inspect, or anybody else. So maybe apprise to the 
public sector, but not--I mean, to the private sector but not 
to the public.
    Ms. Quarterman. I don't know if we have oversight of this 
particular facility if it is defense related----
    Mrs. Napolitano. It was.
    Ms. Quarterman. --as opposed to transportation related.
    Mrs. Napolitano. Correct.
    Ms. Quarterman. But----
    Mrs. Napolitano. Maybe I can take it up with you later. 
That is not a problem.
    The second one is the remediation of selenium that is being 
found in some of the discharges to the remediation wells and 
has forced the shutdown of 13 of the 23 remediation wells.
    But what can the oil companies and the pipeline companies 
do when there is no course to be able to continue their 
remediation?
    Ms. Quarterman. Remediation of?
    Mrs. Napolitano. Selenium and carcinogens.
    Ms. Quarterman. Well, they should--obviously they 
areresponsible for cleaning up those spills under some Federal 
regulation.
    Mrs. Napolitano. Maybe I can take that up with you and get 
further information.
    Ms. Quarterman. Yes.
    Mrs. Napolitano. The other question that I had was the 
following a serious pipeline accident in 2007, NTSB made a 
safety recommendation to PHMSA to initiate a program to 
evaluate pipeline operators' public education programs, 
including pipeline operation self-evaluation of effectiveness 
of the public education programs. It is our understanding that 
PHMSA wanted to wait until after of June 2010 this year, which 
has already passed, to have a better understanding of the 
strengths and weaknesses of the existing public awareness 
requirements after reviewing operator effectiveness 
evaluations.
    Has PHMSA reviewed the operation effective evaluations, and 
does PHMSA plan to respond to NTSB safety recommendations, and 
can this Subcommittee be made aware of those findings?
    Ms. Quarterman. Absolutely we are in the process of 
responding to that NTSB recommendation. There was an evaluation 
work group that was held on June 30th of this year to go over 
what the States and PHMSA together should do going forward in 
terms of evaluating the public awareness programs that the 
companies have had now for years of use of their public 
awareness programs. We would like them to do an evaluation of 
what they have done so far, and then beginning in the fall, we 
will start with our State partners inspecting the evaluation 
that the companies have done of their public awareness program. 
We are already on--whenever we go out for an inspection, we do 
an evaluation of their public awareness program, but this is 
sort of an add-on, sort of a look-back of what they have done 
so far.
    Mrs. Napolitano. Is this self-reporting?
    Ms. Quarterman. Well, they do an evaluation, and we will 
review what they have done.
    Mrs. Napolitano. But do you actually physically look at the 
actual delivery of that program delivery?
    Ms. Quarterman. Well, we look at the plan, we look at the 
evaluation of the plan, and then we determine whether or not to 
give them a violation based on what they have or have not done. 
Now, if there has been an incident where it is obvious that 
something in the plan failed, and that may be the case in some 
of the recent incidents where there were problems with public 
awareness plans, then they would, of course, get a violation as 
a result of that.
    Mrs. Napolitano. Thank you, Madam Chair.
    Ms. Brown of Florida. Thank you.
    Ms. Titus.
    Ms. Titus. Thank you, Madam Chairman, and thank you for 
joining us again today.
    I just want to ask you a few questions about the Technical 
Assistance Grant program. As I understand it, that was part of 
the original Pipeline Safety Act of 2002, but the first round 
of grants didn't go out until September of 2009, but when they 
did go out, they were successful. A number of independent 
communities across the country were able to hire technical 
advisors to help them assess just what the pipes were that were 
running through there, how to keep them safe, and what to do in 
case they weren't.
    I also understand now you are about to do maybe a second 
round of these grants. I wonder if you could just address for 
us some questions about how this process is going to work. Some 
of those questions you might consider, are we sure we have the 
funding, is that clear? Are we going forward with the funding? 
It is going to be reauthorized first?
    Second, as you look at the second round, are you 
considering any alterations to the application process, like 
maybe raising the cap on the amount of the grants or removing 
the limitation on funding sources for the grant? Is that part 
of the process?
    Third, is there any better effort to do public outreach and 
promotion so people know that these grants are available?
    And finally, I think this is going to be brought up in 
later testimony, but since it is the reverse order, I will ask 
you now. There is some rumor out there that some pipeline 
projects are going to be part of some of the applications from 
municipal governments where the law strictly says that those 
kinds of pipeline projects are not what is intended to be 
funded by this money.
    If you could address those things for us generally, I would 
appreciate it.
    Ms. Quarterman. Absolutely. The Pipeline Safety Improvement 
Act of 2002 did authorize the TAG, Technical Assistance Grant 
program, we call them TAG grant programs. The first 
appropriations for that program were not until fiscal 2009. 
There were some initial monies that were able to be brought to 
bear to do some initial pilot projects. Beginning in fiscal 
2009, we actually got a million dollars appropriated for that 
program, and I think the limitation is $50,000 per grantee. The 
first round, close--there was a million dollars appropriated to 
the program. Close to a million dollars was made available for 
grantees in that program.
    We are right now in the middle of the next year's review 
for fiscal year 2010. We have received--I forgot how many, but 
numerous applications for that program, and we are in the 
process of reviewing those applications for announcements 
before the end of the fiscal year. So we are in the middle of 
the process right now, so I can't tell you about any particular 
awardee at this point.
    Ms. Titus. Well, is it a major consideration of yours to be 
sure that these awards are in keeping with the original----
    Ms. Quarterman. Oh, absolutely. They won't be going----
    Ms. Titus. And do you have any concern about the future 
funding of these grants?
    Ms. Quarterman. It is in the President's budget for fiscal 
year 2011. Obviously we are waiting to see what happens with 
that, but it is in the President's request.
    Ms. Titus. Thank you, Madam Chairman.
    Ms. Brown of Florida. I just have a follow-up to that 
question also. How much--did you say those grants were for a 
million dollars, the awardees?
    Ms. Quarterman. There was a million dollars appropriated 
for the grants, and I think each of them could be up to $50,000 
apiece. And the final award was 900-something thousand dollars, 
so close to a million dollars.
    Ms. Brown of Florida. That seems to be a very small amount 
considering the magnitude of the program, the need for the 
program. Did you all request more?
    Ms. Quarterman. We--I wasn't here then, so I can't really 
answer that question. I can research it for you. I don't know 
what was requested.
    Ms. Brown of Florida. Well, how effective do you think the 
program is? Have you all evaluated the program?
    Ms. Quarterman. We haven't evaluated it. So far it has only 
been through 1 fiscal year, and I haven't had a summary of what 
the results were so far.
    I think the idea for it is fantastic. And it may be, as the 
Member suggested, we need to do more to publicize it to get 
more communities to come forward and ask for monies, and we 
will work on that, absolutely.
    Ms. Brown of Florida. You said have you received numerous 
applications, though?
    Ms. Quarterman. Yes, we have.
    Ms. Brown of Florida. Do you know how many applications you 
all have received?
    Ms. Quarterman. I know in fiscal 2009, we had 21 grantees. 
For this fiscal year I don't know how many applications we have 
gotten, but I know there are a lot.
    Ms. Brown of Florida. OK. On the second panel that is 
coming up, there was a discussion about the Governors-appointed 
Pipeline Safety Advisory Committee to increase public awareness 
and education, and it seems as if your agency has not promoted 
it. Can you tell us why, since it was part of a 2002 
authorization?
    Ms. Quarterman. I am sorry, I am not familiar with that. I 
will have to get back to you on that.
    Ms. Brown of Florida. OK. Well, would you all get back to 
us in answer to that?
    Ms. Quarterman. Yes, sure.
    Ms. Brown of Florida. How many inspectors does DOT have on 
duty today to conduct inspections?
    Ms. Quarterman. We have 135--under the authorization, we 
have slots for 135 inspection enforcement personnel. We 
actually have in our budget 136 personnel. I believe we have 
102 on board, and have offers outstanding or accepted offers to 
another 18 or so, and then another 6 are in interview, but that 
information is probably about a month old. So hopefully we will 
have even more people coming in.
    Ms. Brown of Florida. Has PHMSA taken any enforcement 
action against pipeline operators for failing to implement an 
effective public education program as prescribed by the 
regulations?
    Ms. Quarterman. I would have to get back to you on that as 
well.
    Ms. Brown of Florida. Also, have any States taken any 
enforcement action against an operator for failing to comply 
with the Federal regulations regarding public awareness 
programs. So would you have to get back with me on that also, I 
guess?
    Ms. Quarterman. Yes.
    Ms. Brown of Florida. Are there any additional questions?
    Do you have any additional comments that you want to make?
    Ms. Quarterman. If I might, I would like to recognize the 
staff of PHMSA, the pipeline staff. At the end of the hearing 
several months ago now, I called to the attention the career 
folks who work for me, and I just want to say that we have a 
wonderful group of career people who are extremely dedicated to 
pipeline safety working for us, and I just want to let them 
know that we appreciate all they have done, and I appreciate 
it.
    Ms. Brown of Florida. Well, thank you for your leadership. 
This is a trying time for us, making sure that we be very 
proactive in dealing with our responsibilities. I don't want 
what happened with the Horizon Deepwater to happen to our 
Committee and we are wondering, oh, we should have had this in 
place, or we should have made sure that we had the regulations 
in place or the inspections. So I appreciate your forward 
thinking and working with the Committee. I am sure we will 
present to the Congress a reauthorization bill that will cover 
the things that we need to cover in our reauthorization. So 
thank you for your leadership.
    Ms. Quarterman. Thank you.
    Ms. Brown of Florida. Panel 2.
    I am pleased to introduce the second panel of witnesses. We 
have with us Mr. Rick Kessler, vice president of the Board of 
Directors of the Pipeline Safety Trust.
    And we have Mr. Massoud Tahamtani. Help me out here; what 
is your name?
    Mr. Tahamtani. Tahamtani.
    Ms. Brown of Florida. Tahamtani.
    Mr. Tahamtani. Tahamtani.
    Ms. Brown of Florida. Welcome. Director of the Division of 
Utilities and Railroad Safety of the Virginia State Corporation 
Commission, on behalf of the National Association of Pipeline 
Safety Representatives.
    And we have Mr. Bob Kipp, president of the Common Ground; 
and Mr. Peter O'Rourke, Director of Energy Programs for the 
National Association of State Fire Marshals. And we have Mr. 
Sam Davis, general manager and CEO of the Lake Apopka--in my 
area--Natural Gas District in Winter Garden, Florida, on behalf 
of the American Public Gas Association. And finally, Mr. Peter 
Lidiak--what is that last name?
    Mr. Lidiak. Lidiak.
    Ms. Brown of Florida. OK. Pipeline director of the American 
Petroleum Institute.
    Welcome. We are very pleased to have all of you here with 
us this afternoon. But first let me remind each of you under 
the Committee rules oral statements must be limited to 5 
minutes, and your entire statement will appear in the record, 
and, of course, we will have time for questioning.
    Mr. Kessler.

   TESTIMONY OF RICK KESSLER, VICE PRESIDENT OF THE BOARD OF 
DIRECTORS, PIPELINE SAFETY TRUST; MASSOUD TAHAMTANI, DIRECTOR, 
    DIVISION OF UTILITY AND RAILROAD SAFETY, VIRGINIA STATE 
 CORPORATION COMMISSION, ON BEHALF OF NATIONAL ASSOCIATION OF 
 PIPELINE SAFETY REPRESENTATIVES; BOB KIPP, PRESIDENT, COMMON 
 GROUND ALLIANCE; PETER O'ROURKE, DIRECTOR OF ENERGY PROGRAMS, 
NATIONAL ASSOCIATION OF STATE FIRE MARSHALS; SAM DAVIS, GENERAL 
   MANAGER AND CEO, LAKE APOPKA NATURAL GAS DISTRICT, WINTER 
GARDEN, FLORIDA, ON BEHALF OF AMERICAN PUBLIC GAS ASSOCIATION; 
    AND PETER LIDIAK, PIPELINE DIRECTOR, AMERICAN PETROLEUM 
                           INSTITUTE

    Mr. Kessler. Chairwoman Brown, and Ranking Member Shuster, 
Members of the Subcommittee, good afternoon, and thank you for 
allowing me the honor of testifying at this hearing. My name is 
Rick Kessler. I am here today in my role as vice president of 
the Pipeline Safety Trust, the Nation's leading nonprofit 
organization dedicated to improving the safety of our country's 
pipeline system.
    Overall we believe the public has the right to know about 
the safety of pipelines affecting communities, and that 
providing this information is good for the public, good for the 
environment, and ultimately good for the pipeline companies who 
will benefit from having better informed citizens living near 
their facilities. Greater transparency in all aspects of 
pipeline safety will lead to increased awareness, involvement, 
review, and ultimately safety. That is why we strongly believe 
Congress should make citizen right-to-know provisions a top 
priority for inclusion in the next reauthorization.
    Over the last 8 years, PHMSA has done a pretty good job of 
increasing transparency for many aspects of pipeline safety. 
One of the true successes has been PHMSA's rapid implementation 
of the 2006 Act's enforcement transparency section. Now 
affected communities can log on to the PHMSA web site and 
review enforcement actions regarding local pipelines.
    We would like to see PHMSA go even farther to create a web-
based system to allow public access to specific inspection 
information about pipelines, including when PHMSA inspected a 
given pipeline, types of inspections performed, what was found, 
and how concerns were addressed. Just as Congress required 
PHMSA to institute enforcement transparency in the 2006 Act, 
the Trust urges Congress to require similar inspection 
transparency this year. But other information must be more 
readily available, too, including information about high-
consequence areas and emergency response plans.
    In response to the latter, while onshore oil pipeline 
operators are required to prepare spill response plans, to our 
knowledge, the plans are not public documents and certainly 
aren't easily available documents. Further, the process to 
develop these plans is closed to the public. This must be 
fixed.
    The BP Gulf of Mexico disaster illuminated not only the 
last point, but also the dicey practice of Federal agencies 
incorporating into the regulation standards developed by the 
very entities they oversee. Like MMS, PHMSA incorporated into 
its regulations standards developed by organizations made up in 
whole or in part of industry representatives, approximately 85 
in all.
    Clearly the pipeline industry has considerable knowledge 
and expertise in certain areas that must be tapped. They must 
be tapped to draft standards that are technically correct and 
can be implemented efficiently. But when a regulatory agency 
needs to adopt industry-developed standards 85 times, it's kind 
of a red flag that the agency lacks the resources and expertise 
to develop these standards on its own.
    Even more outrageous, once the standards are incorporated 
into Federal taxpayer-funded regulations, they remain the 
property of the standards-setting organization. So if a citizen 
wants to review the standards in a U.S. Government regulation, 
they actually have to buy a copy from the private organization 
that drafted them. Prices for these documents, which again are 
part of a U.S. Government taxpayer-financed regulation, range 
from just below $100 to nearly $1,000. It is just wrong, and, 
of course, the expense discourages citizen review and 
participation in the process.
    Now, I know you share our view, Madam Chair, as do many of 
your colleagues on both sides of the aisle and Administrator 
Quarterman. We think this can easily and must be remedied in 
statute in the next reauthorization.
    Moving on, over the past year and a half, PHMSA finally 
started implementing the Community TAG Grant program authorized 
in 2002. Overall, despite the unacceptably long delay in 
implementation, we view the first round of this new grant 
program generally as a huge success. However, ongoing funding 
for these grants isn't clear, so the Trust asks the Committee 
to ensure the reauthorization of these grants, consider raising 
the cap on the amount of an individual grant, remove the 
limitation on funding sources for the grants, and, most 
importantly, do whatever is necessary to ensure funds are 
appropriated.
    Additionally, there were mistakes made by PHMSA with 
awarding grants not meeting the congressional intent of the 
program either in terms of qualifying recipients or use of the 
funds. In creating the grant program, Congress explicitly 
excluded for-profit entities to ensure the program's monies 
reached its intended audience of local governments and 
nonprofit citizen groups, not pipeline companies. Congress also 
specifically defined and limited the use of those funds to 
scientific analysis and promotion of public participation.
    That some municipally owned companies are trying to exploit 
a possible loophole in the law to subsidize their own 
operations unfairly at the expense of local governments, 
legitimate citizen groups, and competitor companies 
disqualified from receiving such funding is shameful. It is 
sad, but we have to ask Congress to clarify in statute that 
this grant program is not to fund, and it was never supposed to 
fund, the activities of any pipeline operator, public or 
private.
    I see my time is running out, so let me just conclude by 
thanking you again. I look forward to answering your questions, 
and also look forward to working with this Committee, both 
sides of the aisle, and Congress on the authorization.
    Ms. Brown of Florida. Next.
    Mr. Tahamtani. Madam Chair Brown, Ranking Member Shuster, 
Members of the Committee, thank you for the opportunity to 
discuss our role in support of pipeline safety. I am testifying 
today on behalf of the National Association of Pipeline Safety 
Representatives. NAPSR, for short, is a nonprofit organization 
of State pipeline safety personnel. As partners of the PHMSA, 
we serve to support, encourage and enhance pipeline safety in 
the country.
    Since the Pipeline Safety Act was signed into law in 1968, 
States have been acting as certified agents for implementing 
and enforcing Federal safety regulations. State pipeline safety 
personnel represent more than 80 percent of the State and 
Federal inspection workforce. State inspectors are the first 
line of defense at the community level to promote pipeline 
safety, underground utility damage prevention and public 
awareness regarding gaseous and liquid pipeline systems.
    In their role as inspectors, the State pipeline safety 
personnel interact with a variety of communities which may be 
affected by the pipelines of more than 3,000 operators subject 
to the requirements of the public awareness program 
regulations.
    I have submitted written testimony for the record 
describing the role of the States in helping to enhance 
pipeline safety and the status of our efforts in the areas of 
education and public awareness.
    Briefly, States have been engaged in two distinct efforts: 
One, education of the public about gas and liquid pipeline 
safety and how to prevent excavation damage to these pipelines; 
and two, inspection of operators' public awareness programs, 
plans and results. We are also continuing to work with PHMSA in 
putting together inspection protocols to use in determining the 
effectiveness of these programs.
    As you know, excavation damage is the number one cause of 
pipeline accidents. With the aid of the Federal One Call and 
the State Damage Prevention grants, the States have been very 
active in helping to educate those who excavate near buried 
pipelines and other facilities. These activities include 
promoting the 811 nationwide number to be called before any 
excavation.
    In my own State of Virginia, we routinely sponsor public 
service announcements about excavation damage prevention and 
offer mandatory education programs as part of the enforcement 
of the Virginia damage prevention law. In addition, we annually 
distribute hundreds of thousands of educational materials 
ranging from coloring books for young Virginians to safe 
digging manuals for professional excavators.
    With respect to operators' public awareness programs and 
results thus far, the States have primarily concentrated on 
determining the adequacy of these programs. In order to 
evaluate if these programs are effective, States and PHMSA are 
putting together inspection forms and associated guidance for 
use by our inspectors. In crafting these documents, we are 
addressing certain issues to ensure effective evaluation of 
these programs.
    In short, we believe the requirement for pipeline operators 
to have effective public awareness program is good, and it has 
already shown some results. With our Federal partner we have 
mapped out a plan to begin verification of these plans as early 
as this fall. At this point NAPSR believes added legislative 
mandates in this area are not warranted and could create 
additional obstacles for operators to implement their program.
    Thank you, Madam Chairwoman, and I will be glad to answer 
any questions.
    Ms. Brown of Florida. Mr. Kipp.
    Mr. Kipp. I am pleased to appear before you today to 
represent the CGA, a nonprofit organization dedicated to shared 
responsibility and damage prevention to underground facilities. 
The CGA now counts more than 1,400 individuals, representing 16 
stakeholder groups, and nearly 200 member organizations. In 
addition, our 60 regional partners total some 2,000 members 
covering most States and 6 Canadian provinces.
    On May 1st, 2007, 811 came into service across the country. 
Much of our public awareness focus has been centered on 
educating the public and excavators through the Call 811 Before 
You Dig campaign. The CGA relies almost completely on our 
network of members to implement the 811 campaign. Following are 
eight examples of CGA's major activities in public awareness 
and education, the topic on today's agenda. Many other 
initiatives are identified in the written submission provided 
earlier this week.
    In November 2009, the 811 logo and tagline were painted on 
the number 29 Shell race car in Homestead for the closing race 
of the 2009 NASCAR series. In April of this year, Shell once 
again painted the tagline on the race care for the Talladega 
race. They were joined by 3M, who included the 811 logo and 
tagline on the number 16 car. At no cost to the CGA, these 
messages generated more than a half-million dollars' worth of 
media coverage for the 811 message.
    Beginning 5 a.m. on August 11th, 2009, more than 50 
volunteers from Dig Safely New York, National Grid and Con Ed 
worked the rope lines of the Today Show and Early Show wearing 
811 T-shirts on 8/11 Day. One of the volunteers was 
interviewed, generating a message that, according to 
advertising equivalency values, would have cost some $50,000.
    John Deere has arranged for CGA and the 811 message to ring 
the closing bell at the New York Stock Exchange on August 20th 
of this year.
    Atmos Energy has incorporated the 811 logo on all print 
correspondence, which equates to millions of pieces of 
literature annually.
    Chevron funded the production and distribution of a radio 
PSA tailored to the 19 coastal parishes in Louisiana, reminding 
folks to please call 811 before dredging in the gulf to avoid 
further damage and potential injury.
    Williams Pipeline provided funding to the CGA to create, 
produce and distribute an 8-minute video for educating 8- to 
11-year-olds on the dangers of digging and the treasures that 
lie below surface of the Earth.
    Colonial Pipeline painted a 30-foot-high 811 logo and the 
accompanying message on a holding tank along Interstate 85. 
Following their lead, Kinder Morgan, Sunoco, PSE&G of New 
Jersey, Williams, Shell and others have all painted the 811 
logo and message on tanks facing highly traveled highways 
throughout the country.
    Ten One Call centers have pooled advertising money and 
contracted Joey Logano, a NASCAR driver, to record radio and 
television PSAs for ad distribution. Logano's photo 
highlighting the 811 message has also been incorporated into a 
large-scale print campaign.
    CGA estimates that stakeholder support of the 811 campaign 
provides a value of $10 million annually in advertising 
equivalency.
    The CGA best practices have become the standard for damage-
prevention practices. A number of States have adopted some or 
all of the CGA practices in their laws or rules governing 
excavation practices in their States. Per these practices, the 
CGA believes that consistent, fair and balanced State 
enforcement of One Call laws in States where no enforcement 
exists today has the greatest potential for helping reduce 
excavation damages.
    The CGA also believes the elimination of State exemptions 
to One Call laws would also help reduce damages, and together 
these two issues, if implemented, will help continue this 
yearly trend of reduced excavation damages in this country.
    In August, the CGA will publish and distribute its sixth 
report on damage data. Following is a brief summary of 
highlights that will be found in this report:
    2009 marked the fourth consecutive year that more than 
100,000 reports were voluntarily input into our system.
    It is estimated that total damages to underground 
infrastructure have gone from an estimated 450,000 in 2004 to 
170,000 in 2009, a decrease in damages of more than 60 percent.
    It is estimated that no call made to the One Call centers 
were responsible or were a contributing factor in more than 
200,000 damages in 2004, while that number was estimated to be 
approximately 60,000 last year, in 2009, a decrease of 70 
percent.
    We believe that the advent of 811 and public awareness 
programs of CGA stakeholders have had a major impact on this 
aspect of damage prevention. We still have much work to do. 
Thank you.
    Ms. Brown of Florida. Mr. O'Rourke.
    Mr. O'Rourke. Following Bob Kipp is not really fair to me. 
CGA is such a great organization.
    Chairwoman Brown, Ranking Member Shuster, thank you for 
having the National Association of State Fire Marshals testify 
before the Subcommittee today.
    The National Association of State Fire Marshals represents 
the most senior fire officials at the State level. Our 
membership is unique, however, in that many State fire marshals 
are, in fact, law enforcement personnel, giving our 
organization a blended fire and law enforcement perspective. 
Most of our State fire marshals, however, began their careers 
in the firehouse, working their way up the ranks, eventually 
achieving the highest level fire service position of the State.
    Among the many duties of the State fire marshal, one of the 
most important is incident prevention.
    Mr. O'Rourke. As such, incident prevention is a central 
focus in all our programs, in particular for pipeline safety.
    The National Association of State Fire Marshals has been 
actively involved in pipeline education and safety since 2002 
when we entered into the Partnership For Excellence in Pipeline 
Safety with U.S. DOT. The State Fire Marshals and U.S. DOT's 
partnership is focused on many issues, including liquified 
national gas safety, pipeline high consequence areas, hazardous 
material safety, but the foundation of the partnership is a 
training program entitled Pipeline Emergencies. The Pipeline 
Emergencies Program offers a comprehensive training curriculum 
that covers liquid and gas pipelines, transmission and 
distribution line pipelines.
    The unambiguous priority of the State Fire Marshals is to 
ensure that all fire fighters, in particular volunteer fire 
fighters, receive comprehensive fire training and prevention 
education. To that end, the Pipeline Emergencies Training 
Program, which was developed in 2004, we have shipped 45,000 
training packages to both public safety and industry personnel. 
U.S. DOT has paid for the cost of shipping that material, and 
there is no purchase fee to any public safety organization that 
requests a copy.
    In addition, we have trained more than 1,000 certified fire 
instructors in all 50 states.
    The timing of today's hearing is quite opportune. One of 
the limitations of our current Pipeline Emergencies Training 
Program has been that it has been available only in a hard copy 
and it is disseminated through a broad network of emergency 
response organizations. While this has helped to ensure that 
the public safety community is saturated with the training 
program, it has limited our ability to measure the program. 
Several months ago, however, State Fire Marshals and U.S. DOT 
agreed to update the training curriculum and, most important, 
make it available in the electronic format.
    We are now currently exploring funding opportunities for a 
more comprehensive pipeline safety training portal. We are not 
facing electronic or technological difficulties or limitations 
with this portal. Well established platforms exist, and the 
platforms exist in order to develop these, deliver these 
education programs electronically. Some of these platforms 
allow for integrated and multi-modal notification capabilities. 
And with these capabilities, the State Fire Marshals and the 
pipeline industry could engage in measurable communications 
with the public safety and other public officials regarding 
safety training, pipeline maintenance, high consequence areas 
and a myriad of other public awareness priorities.
    We currently are reviewing the feasibility of this portal 
approach. Sustained funding for a curriculum of this type is 
always a concern, as training cannot be switched on and off 
depending on the availability of resources. It is imperative to 
continue the progress that we have achieved through Pipeline 
Emergencies Training Program. In order to adequately maintain 
the training necessary for new emergency responders entering 
into the industry and to update the training curriculum for new 
procedures and hazardous materials, we respectfully request 
that your Subcommittee authorize funding for pipeline training 
for a multi-year period.
    The National Association of State Fire Marshals remains 
committed to providing pipeline safety training and awareness 
to the Nation's emergency responders. Hearings like this are 
essential to sharpening the country's focus on these so 
preventible incidents. Public awareness and education, as well 
as emergency responder training, are a vital component of a 
pipeline safety program. Our association and our membership 
stand ready to provide greater assistance to the Subcommittee, 
to the executive branch and to our State and local partners. I 
thank you on behalf of the National Association of State Fire 
Marshals for this opportunity and am happy to answer any 
questions.
    Ms. Brown of Florida. I think we can get through Mr. Davis 
at least.
     Mr. Davis.
    Mr. Davis. Chairman Brown, Ranking Member Shusterand 
Members of the Committee, I appreciate this opportunity to 
testify before you today.
    My name is Sam Davis, and I am the general manager and CEO 
of the Lake Apopka Natural Gas District in Winter Garden, 
Florida.
    The Lake Apopka Natural Gas District currently operates a 
municipal natural gas distribution utility with over 600 miles 
of pipe infrastructure which serves a 500 square mile area 
within Lake and Orange Counties in central Florida. The 
district serves approximately 15,000 customers.
    I testify today on behalf of the American Public Gas 
Association. APGA is the national association for publicly 
owned, not-for-profit natural gas retail distribution systems. 
There are approximately 1,000 public gas systems in 36 States.
    Public gas systems are an important part of their 
community. Our members' employees live in their communities 
they serve and are accountable to local officials. Public gas 
systems are generally regulated by their consumer owners 
through locally elected governing boards or appointed 
officials.
    However, when it comes to pipeline safety all of our 
members must comply in the same manner as industrial-owned 
utilities with pipeline safety regulations issued by Pipelines 
and Hazardous Materials Safety Administration, which is PHMSA. 
For most of our members these pipeline safety regulations are 
enforced by an individual State's pipeline safety agency.
    While the manner of safety regulation may be the same, one 
major difference between the average industrial-owned utility 
and the average public gas system is size and the number of 
both customers served and employees. Approximately half of the 
1,000 public gas systems have five employees or less. As a 
result, regulations and rules have a significantly different 
impact upon the small public gas system than they do upon a 
larger system serving hundreds of thousands or millions of 
customers with several hundreds or even thousands of employees.
    In addition, increased costs imposed on these local 
governments by additional regulation of their natural gas 
utilities can potentially cut into other services provided by 
the local government, including fire, police and public safety 
programs.
    Through a cooperative agreement with PHMSA and APGA 
security integrity, they assist small operators to meet their 
regulatory requirements, and we thank PHMSA for their support.
    Gas utilities are the final step in taking natural gas from 
the production field to the homeowner or business. As such, a 
public gas systems' commitment to safety is second to none. A 
part of safety is education and public awareness.
    Even before there were Federal pipeline safety regulations, 
public gas systems conducted public awareness programs. 
Utilities add odorant to the gas to give it its distinctive 
smell so that people can smell a leak. Educating the public so 
that the public recognizes a gas odor and to call the utility 
if they smell gas is a critical component of each utility 
safety program.
    Another critical component is educating the public about 
the existence of buried gas lines in their community and the 
importance of calling the One Call center to have lines marked 
before digging. In 2006 APGA developed a multi-public awareness 
plan. APGA also conducts public awareness surveys for 
participating members. It is called the APGA Gas Overall 
Awareness Level, GOAL, program. And it calls a random sample of 
customers and noncustomers in the service territory of 
participating utilities. We are conducting our fourth year of 
surveys, even though the regulations did not require service to 
be completed until this year.
    As the Committee considers legislation to reauthorize the 
Pipeline Safety Act, I want to communicate our public--excuse 
me, our support for reasonable regulations to ensure that 
individuals who control the Nation's network of distribution 
pipelines are provided the training and tools necessary to 
safely operate those systems.
    Over the past several years the industry had numerous 
additional requirements placed on it. For this reason, APGA 
strongly supports a clean reauthorization of the act.
    Should the Committee consider revisions to the act, there 
are a number of issues APGA will ask the Committee to consider. 
One of these issues I would like to bring to your attention 
relates to an expansion of the excess flow valve requirements 
to commercial and industrial businesses and multifamily 
residences. A commercial building, unlike a residential unit, 
may see changes in gas--may see huge changes in gas demand as 
tenants in the space move in and out. As a result, the EFV 
application to these units would be impractical.
    PHMSA has established a working group of government, 
industry, and public experts to study the issues relating to 
installing large volumes, EFVs and other single residential 
services. We encourage Congress to allow this stakeholder 
working group to proceed towards making specific 
recommendations on this issue. Public gas systems are proud of 
their safety record. Safety has been and will continue to be 
our top priority. We look forward to working with the Committee 
on reauthorization of the Pipeline Safety Act. Thank you.
    Ms. Brown of Florida. Thank you.
    What we are going to do is stand in informal recess. We 
have three votes, and we will be back as soon as the last vote 
is over. Thank you.
    [Recess.]
    Ms. Brown of Florida. The Committee will officially come 
back to order.
    Mr. Lidiak, we left off with you. Thank you.
    Mr. Lidiak. Good afternoon Chairwoman Brown, Ranking Member 
Shuster and Members of the Subcommittee. Thank you for inviting 
me to testify on pipeline public awareness and education 
programs.
    I am Peter Lidiak, the pipeline director for the American 
Petroleum Institute. My comments today are being presented on 
behalf of API and AOPL, the Association of Oil Pipelines. 
Together our members operate 85 percent of the liquid pipeline 
miles in the United States.
    Public awareness programs are tools for pipeline operators 
to get information about pipelines into the hands of the 
public, excavators, public officials and first responders, 
among others. This includes information about activities that 
are and are not appropriate around pipelines and what to do in 
the event of a pipeline emergency.
    Pipeline operators have conducted some type of public 
awareness programs for 20 years. Over time, pipeline operators 
have developed and shared practices to improve their programs. 
In 2003, a consensus standard establishing a common framework 
for public awareness programs, API Recommended Practice 1162, 
was published. And in May 2005, the Office of Pipeline Safety 
incorporated RP 1162 by reference into its regulations, thereby 
requiring liquid and natural gas operators to follow these 
practices.
    When the first edition of RP 1162 was being drafted, the 
goal was to craft a public awareness framework and provide 
practices that were clear, reasonable and practical, so that 
pipeline safety was enhanced. That meant clarifying what public 
awareness actually means; determining the techniques and 
logistics for achieving it; and then measuring for 
effectiveness. And it meant taking on this task for the 
hundreds of pipeline operators and many millions of people who 
live or work along the hundreds of thousands of miles of 
pipelines that run across our Nation.
    Many stakeholders were involved in developing RP 1162, 
including industry, members of the public, State regulators, 
and the Office of Pipeline Safety. We gathered input and 
received on drafts and used that feedback.
    Communicating safety awareness about anything is hard: Not 
using a cell phone while driving; wearing a seat belt; the 
dangers of exceeding the speed limit. Each and every day people 
are barraged with messages and information. Sometimes people 
don't want to take the time to listen or don't have enough 
interest, even though we think they should. It is little wonder 
that pipeline operators sometimes struggle to communicate about 
pipeline safety in our communities.
    Much has been done to enhance public awareness since the 
first edition of RP 1162 came out, and much has been learned. 
We are continually finding new and more effective ways to reach 
out to key audiences about pipeline safety. Our pipeline public 
awareness programs are more effective when we can engage in 
two-way communication with our key audiences.
    As part of our efforts we will make RP 1162 better, as we 
are now doing with a new edition that we expect to come out 
later this year. The proposed revisions for the second edition 
of RP 1162 are expected to address some of the challenges that 
operators face, increase the effectiveness of operator public 
awareness programs, and address a recommendation from the 
National Transportation Safety Board to identify 911 emergency 
call centers explicitly as part of the target audience for 
public awareness programs.
    Another key element of our public education programs is 
getting excavators to use One Call systems before they dig and 
the public to report unauthorized excavation. The industry has 
strongly funded and participated in the Common Ground Alliance 
since its inception to promote best practices in excavation and 
marking around underground facilities. And we supported the 
rollout of the national 811 Call Before You Dig campaign.
    We also support strong State damage prevention laws that 
call for states to eliminate all exemptions from those laws. 
This would remove a significant safety gap because excavation 
damage is a problem, regardless of who the excavator is. Public 
awareness programs need to continually evolve to meet the 
challenges of communicating with the public, excavators and 
officials. However, our objective should remain the same: 
Preventing damage and promoting safety awareness.
    Revisions to the statute regarding public awareness 
programs are unnecessary. Rather than focusing on factors like 
public behavior changes, which are nearly impossible to 
quantify, we believe operators need the flexibility to build 
and innovatively shape their programs to meet our mutual goal 
of promoting safety awareness.
    In order to provide maximum protection to the public from 
excavation damage, we strongly urge that all exemptions from 
State One Call requirements be eliminated. And when the revised 
edition of API 1162 is published, we strongly encourage OPS to 
adopt it as a needed update to the pipeline public awareness 
requirements.
    This concludes my prepared remarks, and I would be happy to 
answer any questions that Members of the Subcommittee may have.
    Ms. Brown of Florida. Thank you. I think I will start with 
you Mr. Lidiak.
    Following the 2007 pipeline incident in Mississippi, the 
NTSB made some safety recommendations to the American Petroleum 
Institute to revise API 1162 to identify 911 emergency call 
centers as emergency response agencies to be included in 
outreach programs under a pipeline operators public education 
program. What has API done to address this issue as far as NTSB 
recommendations?
    Mr. Lidiak. Chairwoman Brown, API has in the draft RP 
included 911 call centers, explicitly identified them, and 
those will be published in the final version. And we have 
informed NTSB of that action, and they have marked the action 
as ongoing and acceptable.
    Ms. Brown of Florida. The recommendation was made in 2007?
    Mr. Lidiak. Yes.
    Ms. Brown of Florida. What year is this?
    Mr. Lidiak. This is 2010. And this is the time period in 
which we would be reviewing the RP, and it has been under 
revision for the last 2 years.
    Ms. Brown of Florida. So when will it be implemented? It is 
being implemented as we speak or you are planning on 
implementing it?
    Mr. Lidiak. The RP is due to be balloted some time within 
the next couple of months.
    Ms. Brown of Florida. Would you explain the process to me? 
I guess I don't understand.
    Mr. Lidiak. When we review a standard, the working group 
will look at things that require changes, and they will work on 
it over time to make those revisions.
    And then, at the end of the process, we will put it out for 
comment. We will collect comments, respond to them, and then 
ballot the final document. And if it passes the ballot, it goes 
into effect. And if it doesn't pass, then we go back and make 
further changes and then reballot it.
    Ms. Brown of Florida. So you all do not have to implement 
these recommendations?
    Mr. Lidiak. We are under no legal obligation to because 
NTSB is not a regulatory body, but we always take NTSB 
recommendations seriously, and we try to address them when we 
are making revisions to our standards documents.
    Ms. Brown of Florida. OK.
    Mr. Shuster.
    Mr. Shuster. Thank you very much, Madam Chair.
    The first question, Mr. Kipp, what can Congress do to help 
your alliance promote the efforts that you do for the 811 
calling?
    Mr. Kipp. We receive a cooperative grant of $500,000 per 
year. An extension of that would be terrific.
    As per the testimony, this year our budget takes that 
$500,000 into account as well as $1.2 million from the 
industry, and with that $1.7 million, we operate the CGA.
    A continuation of that grant would be great. It really 
enables us to develop material that the industry can use and at 
the same time continue building robustness into our damage 
information reporting tool, which is a tool that those 100,000 
damages are submitted to, and we publish that report annually.
    Mr. Shuster. Thank you.
    Also, in regards to the exemption, it is an issue that I 
still can't comprehend. I am not a big proponent of the Federal 
Government doing sweeping laws that say, you must do this, 
because my concern is down the road, as laws tend to evolve or 
devolve, whichever the case may be, any time someone sticks a 
spade shovel in the ground, they will be required to call.
    So can you talk to me, what is your view on the exemptions 
in some of the States?
    And after that, I want to talk to Mr. Tahamtani and ask 
your view on that from your States.
    Mr. Kipp. We recently passed the best practice. And I am 
sure you are aware of the process. But every one of our best 
practices must be agreed to by everybody and everyone in the 
CGA, all 16 stakeholder groups. And the practice took 8 years 
to get through.
    But, basically, we are in favor of mandatory participation 
with a very few slight exemptions. An example, if you own the 
property, there is no public thoroughfare nearby, you are 
digging on your own property, you have your own facility, you 
know where it is--an example, a railroad right of way--then 
fine, go ahead and dig on your property, you know where it is, 
you know there is no danger. And that would be just about the 
only exemption that we are in favor of.
    Mr. Shuster. OK. Thank you.
    Mr. Tahamtani.
    Mr. Tahamtani. With regard to exemptions, I think it is 
very easy to say that we should have no exemptions.
    Virginia law was changed dramatically back in 1995, and we 
have a number of exemptions. For example, not all lines can be 
located. Even if you call, the utility can't find them because 
they were put in years ago; they don't have a tracing wire, for 
example. We have an exemption that says if there is a call for 
excavation and the utility can't find its own facility, they 
should be able to hand dig and find it.
    So you have to be very careful not to say no exemption.
    In Virginia, every exemption that we have is backed by 
data, by experience. I will give you a quick example. Back in 
1995, when we tried to remove the Virginia DOT from that 
exemption, they appeared before our General Assembly and said, 
if you do this, the taxpayers have to bear about $11 million a 
year for us to dig in our own right of way, we know what we 
have in the right of way; 15 years later I don't have the data 
to show that they should not have that exemption. So some 
exemptions do make sense; some don't.
    Mr. Shuster. And what, if they had to call up, what would 
it cost the taxpayers of Virginia, did you say, $11 million or 
more than that?
    Mr. Tahamtani. Well, when VDOT, in this case, is digging on 
their right of way, if they make a call, they have to now mark 
all of their facilities, and other utilities have to mark their 
facilities, and as a result of all of that, you have got an 
expense that keeps on going up.
    Now, no one confirmed the $11 million, but we went on 
record to say that if damage data proved that our DOT employees 
were causing problems, we would be coming back. Again, 15 years 
later, they are in the 1 percentile range in terms of damages.
    Mr. Shuster. Thank you.
    And Mr. Lidiak, if I could, my colleague from New York, on 
a couple of occasions, and I think other colleagues of mine 
have talked about API's recommended practices, making them free 
to everybody. Can you explain to us why they are not free? The 
administrator has talked a little bit about it, but if you 
could.
    Mr. Lidiak. I would be happy to, Mr. Shuster.
    API charges for its standards, as do all standards 
organizations. These fees cover the costs of publication and 
the staffing needed to manage those publications.
    API manages 500 standards at the current time, give or 
take, and it requires a lot of oversight. And that is how we 
recoup the fee. It is part of our business that is a self-
supporting part of our association's work.
    Mr. Shuster. And so, if Congress forced you to do them for 
free, it would be a taking. There would be a constitutional--a 
legal question there.
    Mr. Lidiak. I am not a lawyer.
    Mr. Shuster. Right. But that would be my guess, it would be 
a pretty--you know, taking somebody's proprietary information 
that they paid to staff and research it, so, OK. That is what I 
thought. And I think that the administrator let us know that at 
some point that that seemed to be the case. I appreciate it.
    And with that, I yield back.
    Ms. Brown of Florida. Thank you.
    Mr. Kessler, you stated that the Pipeline Safety Trust 
believes that communities should feel safe and when pipelines 
run through them, the trust of the government, everything 
should be proactive, and I agree to all of this. What is 
missing? What else do you think we need to be doing?
    Mr. Kessler. Well, Madam Chairman, I think generally there 
is very--it is very difficult for citizens to get access to a 
lot of this information, as my testimony said. And to 
participate, particularly in the industry standard development, 
it's not something that most citizens, it is not like a 
government rulemaking where there is a Federal Register notice, 
that there are potentially meetings around the country: it's 
notices to members of that organization. I am sure they would 
welcome if we asked to participate, but I don't know that 
invitations get sent out to groups like ours or other groups 
around the country or even local governments to participate all 
occasions.
    So it is a very different process than the Federal 
Government would undergo. So I think that is one particular 
area. I think access to more data about individual pipelines 
being available so people can know what is actually, that these 
inspections have been performed, what has been found, what has 
been remedied; I think that makes people feel safer when they 
can actually see this, rather than having to rely on an 
interested party with a for-profit motive telling them, don't 
worry about it, everything is safe or a regulator, who, while 
getting better, doesn't have the greatest history with the 
public or with this Congress in terms of its credibility on 
these matters. So, generally more information is better.
    Ms. Brown of Florida. I agree.
    And there is a system that one of the things that I know 
that we will be addressing, because even when the government 
wants certain information, they have to pay for it or if 
someone--I mean, that is the craziest thing I ever heard. That 
will be one of the things that is going to be addressed.
    Mr. Kessler. One thing I would suggest, that as a condition 
of including these industry standards in a rulemaking array, 
then they are required to turn it over for free; otherwise the 
government will have to develop its own standards and will have 
to find a way of raising the money.
    Ms. Brown of Florida. Well, you know Ronald Reagan said 
trust but verify.
    Mr. Kessler. Right.
    Ms. Brown of Florida. So it should be an independent, or 
the government at least publishing the standards and verifying 
that they are accurate, I will tell you anything.
    Mr. Kessler. I think that is right. I feel like, when we 
put things into the record of this Committee or of the House 
and the Senate, we introduce all sorts of public information or 
privately produced information into the record to make it 
publicly available.
    I really think it would be--and I am not averse to 
compensating the industry either, reasonably, but I think there 
really needs to be a condition that if we are going to use 
these standards, then the condition on the industry is--and I 
am not advocating using these standards, but if we are going to 
do it, then the industry has to make it available, basically 
turn it over to the government for publication at whatever, 
whether it is free or some level of compensation.
    Ms. Brown of Florida. I just really believe there should be 
some independent verification.
    Mr. Kessler. Yeah.
    And the API public awareness document can't be, even as 
early as, you know, as recently as today, you can't get that 
off the Web site. Well, it was available, and it was available 
in a way that you can't print it. So it makes it very hard to 
go through such a big document when you can't print it out. I 
know I do a lot of my research still on paper.
    Ms. Brown of Florida. Well, I mean, I understand, when we 
want it, we have to pay for it, so there is a major problem 
there that will be addressed.
    But I can't say I was around in 2002 and you were around in 
2002 when they came up with some recommendations prohibiting 
the user fees to fund the programs. Do you know why?
    Mr. Kessler. Sure. The program was developed primarily Mr. 
Boucher from Virginia----
    Ms. Brown of Florida. I didn't hear you.
    Mr. Kessler. Mr. Boucher from Virginia was the primary, and 
Mr. Dingell. And what it was, the program was developed as a 
compromise on public information right to know between 
Republicans and Democrats. And it was a good compromise. It 
allowed citizens a way to get more information.
    But it was designed, based upon the EPA Technical 
Assistance Grants under Superfund, which this Committee is 
familiar with, and really is designed to go to community groups 
and even local governments. And the reason the word for-profit, 
excluding for-profit entities, that was, in drafting it, the 
specific meaning of for-profit was pipelines. It was, you know, 
leg counsel, and we never thought that we needed to 
specifically say the word pipeline operators or companies. For-
profit seemed to cover it.
    But it clearly was meant for these local governments and 
citizen groups. And then, furthermore, the restrictions, not 
all of which I would love to see continued, but they are there 
in law and passed overwhelmingly by this Committee and the 
House and the Senate, and they state that the money is to be 
used for scientific analysis, data gathering. And this is 
something I think the industry was very interested in. It is 
really to be for hiring technical experts, engineers, for 
assessing data, but also for some public participation where 
the public, helping fund the public go to these things, like 
the API processes or government processes. They are not 
supposed to be used for lobbying, and they are not supposed to 
be used for acquiring physical equipment. It is a small amount 
of money. That is a lot of reason to----
    Ms. Brown of Florida. The grant caps $50,000. Do you want 
to speak to that? And really, the amount of the total program, 
probably, she said $1 million?
    Mr. Kessler. It is $1 million per year, I believe. The 
$50,000 number the members drew from the existing Superfund 
program, which is structured so that a $50,000 grant is 
awarded, but you can continue to award, build upon that award 
over time. The problem is that you can't find an engineer 
anymore and hire a firm for $50,000, and so it becomes not as 
useful, the amount, as I think members thought it was back 
then. So it would be useful to raise that cap.
    Ms. Brown of Florida. And I think, you know, also, not just 
the cap, but the amount of communities that can participate. I 
mean, critical areas, I mean, should be addressed.
    Mr. Kessler. Right. The communities, this hasn't been well 
publicized. And as you know, and I referenced in my testimony, 
it took many years. It took in fact a second reauthorization, 
the 2006 Pipes Act, to really get PHMSA to act on moving this. 
I know there are a number of members who personally were very 
upset and expressed it to previous administrators over the 
duration of how long it took to roll out the program.
    And now that it is rolled out, I think there is a real 
issue with how well it is being publicized, which I think PHMSA 
agrees with, and that we need to really make an effort to let 
communities know that they are able to avail themselves of 
these funds. And I think it will result in a more informed 
public. I think it is kind of the Alfred Hitchcock thing; you 
fear the things you don't see or you don't know more than when 
you have the information and you know what you are dealing 
with. And I think many things that communities fear, once they 
have an independent verification of maybe what the pipeline 
company or PHMSA is saying, will feel much more comfortable, 
and it will make life easier for pipelines, too.
    Ms. Brown of Florida. Thank you.
    Mr. Kipp, in your written testimony, you stated that the 
Common Ground Alliance believes that consistent fair and 
balanced State enforcement of One Call laws in States where no 
enforcement exists today have the greatest potential for 
helping reduce dangers. What States that enforces these laws 
without impacting their already tight budget, expense budget, 
can you please elaborate on this? Specifically, what areas 
where no enforcement exists?
    Mr. Kipp. Well, one of the States--there are a number of 
States who do enforce it, but a good model is the one right 
next to me. Massoud Tahamtani in Virginia, they have a model 
that has been in existence since 1996. And they reduced their 
damages, if I recall the number, Massoud, from 4.59 damages per 
thousand tickets in 1996 to somewhere under 2 right now, if I 
am not mistaken--1.5.
    There are a number of States that have either no 
enforcement whatsoever or enforcement that has been assigned 
to, for instance, the State police. In one of the states I know 
of, they don't have time to enforce; they won't do it. And 
such, there is really no great improvement as a result of their 
laws.
    You really see a difference in States like Georgia, 
Virginia, Maine and other States where they have a variety of 
types of enforcement, fair and balanced enforcement. And that 
is critical.
    A lot of States are looking right now at enforcing the laws 
only when a contractor doesn't do what he should do. Massoud 
will tell you that, in Virginia, they have a system where 
everyone has steps, everyone follows those steps, and whether 
it is the contractor who doesn't call or the locator that 
doesn't mark or mismarks, they are looked at and fined 
appropriately or accordingly or educated if need be to ensure 
that there is no recurrence of this. And that is how he has 
been able to get his damages down to some pretty outstanding 
levels. Some of the other States I am familiar with have 
numbers in the 4 or 5 or 6 damages per thousand tickets, 3 and 
4 times what Massoud has.
    Ms. Brown of Florida. Can you give us a--do we have a 
comprehensive report on each of the States and the status?
    Mr. Kipp. There is no report by State as such. The numbers 
I am giving you--I know Massoud has his by State. Some other 
States will have some numbers. Like Colorado, they have 
mandatory publication of all damages, not only for gas and 
petroleum but for all infrastructure. And they have a good 
report, and that could be provided. The numbers I am giving you 
are mostly generated from discussions that I have with, 
confidential discussions, frankly, that I have with gas 
operators and petroleum operators who will tell me what they 
are running and are looking to improve but are not looking to 
necessarily have a burden of fines on their system.
    Ms. Brown of Florida. Maybe that is one of the things that 
we need to look into in a comprehensive study of each State and 
where we stand.
    Mr. Kipp. Yes. Texas has another system that they just 
rolled out I believe 2years ago, the Railroad Commission. And 
it is very different than what they have in Virginia, but it 
seems to be working. We will see.
    Ms. Brown of Florida. Mr. Tahamtani, can you just give us 
some of what you all have done to bring down your incidence and 
what recommendations that you would add?
    Mr. Tahamtani. Sure. Just a brief history. It was back in 
1993 where a pipeline ruptured not far from here in Reston, 
Virginia, and dumped about 400,000 gallons of oil in the 
Potomac River. As a result of that, we got letters and calls 
from some Members of Congress here and from the Secretary of 
Transportation. So we brought a bunch of people together; 
excavators, locators, utilities, everybody who had something to 
do with this process, and we wrote our law.
    And a couple of things that we did was--one was 
enforcement. Because obviously, even the best laws won't 
probably work by themselves. And in that, we felt that instead 
of the government enforcing it, we needed an expert body of 
people, contractors, utilities, locators, Miss Utility, all 
those entities that have a hand in the process, to look at 
every single damage.
    In Virginia, every single pipeline damage must be reported 
to us and must be investigated. And so that enforcement plus 
investigation of every single report has really been one 
element that has made the program work.
    The other piece is that, in Virginia at least, all the 
fines go to public education. So that has been about $1 million 
just going back to the public on public education. And if you 
add all the money that the Virginia operators, pipeline 
operators, and others spend, we have got about a $7 million 
public education program in the State.
    We also made a number of changes in our law that have made 
it easier for the contractors and the utilities to talk to each 
other. And I mean, when they put a mark down they, designate 
whose mark it is. We have also said that if you get out there 
to dig and that mark doesn't make any sense to you, you cannot 
dig, you have to call back and wait 3 hours. So there are a 
number of these things that have made us, made our program work 
to the point that, Bob mentioned, about 65 percent decrease in 
pipeline damages since 1996.
    Ms. Brown of Florida. Does the State of Virginia exempt 
itself from the 811 requirements, does it ever?
    Mr. Tahamtani. We have a number of exemptions. I mentioned 
earlier that all of these are based on data, and the data still 
supports those exemptions.
    However, there are some exemptions that we had back in 1996 
that we removed them with some fight, and they have worked to, 
again, support the program pretty well.
    Ms. Brown of Florida. Thank you.
    Mr. Davis, I understand that Lake Apopka received a $50,000 
grant from DOT under the Community Technical Assistance Grant 
Program. What are you all doing with the grant, and what is 
your experience with PHMSA on the grant process?
    Mr. Davis. Madam Chair, yes, Lake Apopka was a recipient of 
one of the $50,000 grants. Lake Apopka applied for this grant 
based on criteria released in the Federal Register, Volume 
73216, dated November 6, 2008. There were criteria in that 
release that we were in compliance with. There was also a press 
release issued by DOT on September 17, 2009, announcing the 
grant awards and stating examples of acceptable projects for 
that grant. As such, Lake Apopka Natural Gas is currently using 
the grant toward the initial development of a GIS information 
system. That system, when complete, will help in enhancing our 
pipeline monitoring capabilities and public awareness campaigns 
to promote the sharing of information between our pipelines and 
other natural gas pipelines in the areas and land owners as 
well.
    So the grant has been very, very useful. Our experience 
with PHMSA has been very good, and to my knowledge, we haven't 
had any issues come to my attention because of that.
    Ms. Brown of Florida. How are you all using the grant?
    Mr. Davis. We are implementing, currently implementing the 
formation of a GIS system, Geographical Information System, for 
monitoring purposes. We are just implementing it. We had none. 
The district needed one. We didn't have too many funds for 
that, so we applied for the grant to get some assistance in 
that.
    Ms. Brown of Florida. So are you working with the city 
council or county?
    Mr. Davis. No. Actually, we have a consultant that we are 
working were with in helping us begin that. We are a district 
so, we don't belong to any particular city council. I do 
provide services to nine municipal systems in my district, but 
I report to a five member board that these board members are 
made up of council folks within the districts and the cities 
that I serve.
    Ms. Brown of Florida. Isn't Apopka part of Orange County?
    Mr. Davis. Yes, we are. We serve all of Lake and Orange 
County.
    Ms. Brown of Florida. So have you all talked with the 
council, the county commissioners?
    Mr. Davis. No, we haven't. Actually, I hadn't had any 
discussion with any county commissioners. Mostly our system is 
located in West Orange County, but I do have conversations and 
contact with the various mayors of each of the cities that we 
serve.
    Ms. Brown of Florida. OK.
    Last question, Mr. Lidiak, is there anything that prevents 
PHMSA from just issuing its own standards and not simply 
adopting the API standards?
    Mr. Lidiak. Could you repeat the question? I don't think I 
understand.
    Ms. Brown of Florida. Back to Mr. Shuster's question on 
standards. PHMSA adopts your all standards, and the question is 
whether or not they could issue their own standards? Is there 
anything that will stop them from issuing their own standards?
    Mr. Lidiak. There is nothing that would stop them from 
issuing their own standards.
    Ms. Brown of Florida. Well, I understand we don't want to 
duplicate services, but do you think there is a need to be 
independent?
    Mr. Lidiak. I believe that PHMSA is independent. I believe 
that they evaluate whether they are going to use the standards 
that are required under the National Technology Transfer 
Advancement Act, and they make appropriate use of standards 
when they see that they fit their need.
    Ms. Brown of Florida. Well, I guess my question that I 
asked earlier, and this is the second or third time it has come 
up during the hearing, is that everything is not made available 
to the public. For example, if I wanted some information, I 
would have to pay for it. And that I have a problem with.
    Mr. Lidiak. As was the case with 1162, we made a decision 
with that standard to make it available on our Web site in a 
nonprintable form, as Mr. Kessler indicated. We thought that 
protected our copyright worldwide and still gave the public 
access to the document.
    And certainly, with this document, we would consider doing 
that in the future as we work with PHMSA.
    Because of the model that we use and other standards 
organizations use, it would be difficult to do that for all of 
our standards.
    Ms. Brown of Florida. Well, that is an issue that we are 
going to continue to work through and see if we can come up 
with some answer that will better satisfy me anyway.
    Yes, sir, Mr. Kessler.
    Mr. Kessler. Madam Chair, I just want to comment real 
quickly, following up on your question. PHMSA, there is nothing 
that stops PHMSA from doing just what you said, aside from lack 
of budget, which I think is important, that they have their 
budget. And as I said in my testimony, it also points to a lack 
of expertise that I think should be of concern to the members, 
that the regulator doesn't have the expertise to regulate its 
community. So I just want to say that maybe there needs to be 
some thought about how this regulator performs its duties and 
whether it has the abilities and the resources it needs to do 
that.
    Ms. Brown of Florida. Absolutely. That is what I am 
thinking about as we move forward; how we can better work 
together to make sure that we are doing what we need to do as a 
Member of Congress to protect the public?
    Mr. Kessler. And we certainly appreciate that, Madam 
Chairman, the work that you are doing, Chairman Oberstar, Mr. 
Shuster and others.
    Ms. Brown of Florida. Are there any closing comments that 
any of the panelists would like to make?
    I have a couple of additional questions that we will submit 
to you in writing. And with that, I want to thank the witnesses 
for their testimony and the Members for their questions.
    Again, the Members of this Subcommittee may have additional 
questions for the witnesses, and we will ask you to respond to 
them in writing. I have some already.
    The hearing record will be held open for 14 days for 
Members wishing to make additional statements or any further 
questions.
    Unless there is further business, the Subcommittee is 
adjourned. Thank you.
    [Whereupon, at 5:02 p.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T7561.009
    
    [GRAPHIC] [TIFF OMITTED] T7561.010
    
    [GRAPHIC] [TIFF OMITTED] T7561.011
    
    [GRAPHIC] [TIFF OMITTED] T7561.012
    
    [GRAPHIC] [TIFF OMITTED] T7561.013
    
    [GRAPHIC] [TIFF OMITTED] T7561.014
    
    [GRAPHIC] [TIFF OMITTED] T7561.015
    
    [GRAPHIC] [TIFF OMITTED] T7561.016
    
    [GRAPHIC] [TIFF OMITTED] T7561.017
    
    [GRAPHIC] [TIFF OMITTED] T7561.018
    
    [GRAPHIC] [TIFF OMITTED] T7561.019
    
    [GRAPHIC] [TIFF OMITTED] T7561.020
    
    [GRAPHIC] [TIFF OMITTED] T7561.021
    
    [GRAPHIC] [TIFF OMITTED] T7561.022
    
    [GRAPHIC] [TIFF OMITTED] T7561.023
    
    [GRAPHIC] [TIFF OMITTED] T7561.024
    
    [GRAPHIC] [TIFF OMITTED] T7561.025
    
    [GRAPHIC] [TIFF OMITTED] T7561.026
    
    [GRAPHIC] [TIFF OMITTED] T7561.027
    
    [GRAPHIC] [TIFF OMITTED] T7561.028
    
    [GRAPHIC] [TIFF OMITTED] T7561.029
    
    [GRAPHIC] [TIFF OMITTED] T7561.030
    
    [GRAPHIC] [TIFF OMITTED] T7561.031
    
    [GRAPHIC] [TIFF OMITTED] T7561.032
    
    [GRAPHIC] [TIFF OMITTED] T7561.033
    
    [GRAPHIC] [TIFF OMITTED] T7561.034
    
    [GRAPHIC] [TIFF OMITTED] T7561.035
    
    [GRAPHIC] [TIFF OMITTED] T7561.036
    
    [GRAPHIC] [TIFF OMITTED] T7561.037
    
    [GRAPHIC] [TIFF OMITTED] T7561.038
    
    [GRAPHIC] [TIFF OMITTED] T7561.039
    
    [GRAPHIC] [TIFF OMITTED] T7561.040
    
    [GRAPHIC] [TIFF OMITTED] T7561.041
    
    [GRAPHIC] [TIFF OMITTED] T7561.042
    
    [GRAPHIC] [TIFF OMITTED] T7561.043
    
    [GRAPHIC] [TIFF OMITTED] T7561.044
    
    [GRAPHIC] [TIFF OMITTED] T7561.045
    
    [GRAPHIC] [TIFF OMITTED] T7561.046
    
    [GRAPHIC] [TIFF OMITTED] T7561.047
    
    [GRAPHIC] [TIFF OMITTED] T7561.048
    
    [GRAPHIC] [TIFF OMITTED] T7561.049
    
    [GRAPHIC] [TIFF OMITTED] T7561.050
    
    [GRAPHIC] [TIFF OMITTED] T7561.051
    
    [GRAPHIC] [TIFF OMITTED] T7561.052
    
    [GRAPHIC] [TIFF OMITTED] T7561.053
    
    [GRAPHIC] [TIFF OMITTED] T7561.054
    
    [GRAPHIC] [TIFF OMITTED] T7561.055
    
    [GRAPHIC] [TIFF OMITTED] T7561.056
    
    [GRAPHIC] [TIFF OMITTED] T7561.057
    
    [GRAPHIC] [TIFF OMITTED] T7561.058
    
    [GRAPHIC] [TIFF OMITTED] T7561.059
    
    [GRAPHIC] [TIFF OMITTED] T7561.060
    
    [GRAPHIC] [TIFF OMITTED] T7561.061
    
    [GRAPHIC] [TIFF OMITTED] T7561.062
    
    [GRAPHIC] [TIFF OMITTED] T7561.063
    
    [GRAPHIC] [TIFF OMITTED] T7561.064
    
    [GRAPHIC] [TIFF OMITTED] T7561.065
    
    [GRAPHIC] [TIFF OMITTED] T7561.066
    
    [GRAPHIC] [TIFF OMITTED] T7561.067
    
    [GRAPHIC] [TIFF OMITTED] T7561.068
    
    [GRAPHIC] [TIFF OMITTED] T7561.069
    
    [GRAPHIC] [TIFF OMITTED] T7561.070
    
    [GRAPHIC] [TIFF OMITTED] T7561.071
    
    [GRAPHIC] [TIFF OMITTED] T7561.072
    
    [GRAPHIC] [TIFF OMITTED] T7561.073
    
    [GRAPHIC] [TIFF OMITTED] T7561.074
    
    [GRAPHIC] [TIFF OMITTED] T7561.075
    
    [GRAPHIC] [TIFF OMITTED] T7561.076
    
    [GRAPHIC] [TIFF OMITTED] T7561.077
    
    [GRAPHIC] [TIFF OMITTED] T7561.078
    
    [GRAPHIC] [TIFF OMITTED] T7561.079
    
    [GRAPHIC] [TIFF OMITTED] T7561.080
    
    [GRAPHIC] [TIFF OMITTED] T7561.081
    
    [GRAPHIC] [TIFF OMITTED] T7561.082
    
    [GRAPHIC] [TIFF OMITTED] T7561.083
    
    [GRAPHIC] [TIFF OMITTED] T7561.084
    
    [GRAPHIC] [TIFF OMITTED] T7561.085
    
    [GRAPHIC] [TIFF OMITTED] T7561.086
    
    [GRAPHIC] [TIFF OMITTED] T7561.087
    
    [GRAPHIC] [TIFF OMITTED] T7561.088
    
    [GRAPHIC] [TIFF OMITTED] T7561.089
    
    [GRAPHIC] [TIFF OMITTED] T7561.090
    
    [GRAPHIC] [TIFF OMITTED] T7561.091
    
    [GRAPHIC] [TIFF OMITTED] T7561.092
    
    [GRAPHIC] [TIFF OMITTED] T7561.093
    
    [GRAPHIC] [TIFF OMITTED] T7561.094
    
    [GRAPHIC] [TIFF OMITTED] T7561.095
    
    [GRAPHIC] [TIFF OMITTED] T7561.096
    
    [GRAPHIC] [TIFF OMITTED] T7561.097
    
    [GRAPHIC] [TIFF OMITTED] T7561.098
    
    [GRAPHIC] [TIFF OMITTED] T7561.099
    
    [GRAPHIC] [TIFF OMITTED] T7561.100
    
    [GRAPHIC] [TIFF OMITTED] T7561.101
    
    [GRAPHIC] [TIFF OMITTED] T7561.102
    
    [GRAPHIC] [TIFF OMITTED] T7561.103
    
    [GRAPHIC] [TIFF OMITTED] T7561.104
    
    [GRAPHIC] [TIFF OMITTED] T7561.105
    
    [GRAPHIC] [TIFF OMITTED] T7561.106
    
    [GRAPHIC] [TIFF OMITTED] T7561.107
    
    [GRAPHIC] [TIFF OMITTED] T7561.108
    
    [GRAPHIC] [TIFF OMITTED] T7561.109
    
    [GRAPHIC] [TIFF OMITTED] T7561.110
    
    [GRAPHIC] [TIFF OMITTED] T7561.111
    
    [GRAPHIC] [TIFF OMITTED] T7561.112
    
    [GRAPHIC] [TIFF OMITTED] T7561.113
    
    [GRAPHIC] [TIFF OMITTED] T7561.114
    
    [GRAPHIC] [TIFF OMITTED] T7561.115
    
    [GRAPHIC] [TIFF OMITTED] T7561.116
    
    [GRAPHIC] [TIFF OMITTED] T7561.117
    
    [GRAPHIC] [TIFF OMITTED] T7561.118
    
    [GRAPHIC] [TIFF OMITTED] T7561.119
    
    [GRAPHIC] [TIFF OMITTED] T7561.120
    
    [GRAPHIC] [TIFF OMITTED] T7561.121
    
    [GRAPHIC] [TIFF OMITTED] T7561.122
    
    [GRAPHIC] [TIFF OMITTED] T7561.123
    
    [GRAPHIC] [TIFF OMITTED] T7561.124
    
    [GRAPHIC] [TIFF OMITTED] T7561.125
    
    [GRAPHIC] [TIFF OMITTED] T7561.126
    
    [GRAPHIC] [TIFF OMITTED] T7561.127
    
    [GRAPHIC] [TIFF OMITTED] T7561.128
    
    [GRAPHIC] [TIFF OMITTED] T7561.129
    
    [GRAPHIC] [TIFF OMITTED] T7561.130
    
    [GRAPHIC] [TIFF OMITTED] T7561.131
    
    [GRAPHIC] [TIFF OMITTED] T7561.132
    
    [GRAPHIC] [TIFF OMITTED] T7561.133
    
    [GRAPHIC] [TIFF OMITTED] T7561.134
    
    [GRAPHIC] [TIFF OMITTED] T7561.135
    
    [GRAPHIC] [TIFF OMITTED] T7561.136
    
    [GRAPHIC] [TIFF OMITTED] T7561.137
    
    [GRAPHIC] [TIFF OMITTED] T7561.138
    
    [GRAPHIC] [TIFF OMITTED] T7561.139
    
    [GRAPHIC] [TIFF OMITTED] T7561.140
    
    [GRAPHIC] [TIFF OMITTED] T7561.141
    
    [GRAPHIC] [TIFF OMITTED] T7561.142
    
                                    

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
